Office of Inspector General
U.S. Department of Labor
Office of Audit




                   Florida Misspent JTPA Funds
                     On Its Minority Teachers
                        Education Program




                                  Report Number: 04-00-001-03-340
                                  Date Issued: January 24, 2000
                                              TABLE OF CONTENTS


ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION AND CRITERIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

OBJECTIVE, SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

RESULTS OF AUDIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

$2.9 MILLION IN JTPA FUNDS WERE IMPROPERLY SPENT BY
THE FLORIDA FUND FOR MINORITY TEACHERS PROGRAM . . . . . . . . . . . . . . . . . . . . . . . 7

    The FFMT Program Improperly
    Excluded Nonminorities from Assistance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

    JTPA Monies Should Not Have Been
    Used in a Revolving Loan Fund . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

    Students’ Eligibility for JTPA
    Assistance Was Not Determined . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

    Recipients Were Full-Time Students,
    Not Dislocated Workers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

FLORIDA’S RESPONSE TO THE DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

OIG’S CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

ATTACHMENT A - SCHEDULE OF FFMT SCHOLARSHIPS
                AWARDED AND SAMPLED

EXHIBIT 1 - THE COMPLETE TEXT OF FLORIDA’S RESPONSE TO THE DRAFT

                                                                                                                                          ii
Florida Misused JTPA Funds in its FFMT Program
    DRAFT
           AUDIT REPORT




                                                 iii
                             ACRONYMS



FFMT   -   Florida Fund for Minority Teachers, Inc.

JEP    -   Jobs and Education Partnership

JTPA   -   Job Training Partnership Act

MIS    -   Management Information System

OIG    -   Office of Inspector General

PELL   -   The Federal Pell Grant Program




                                                      iv
Florida Misspent JTPA Funds On Its Minority Teachers Education Program



                                EXECUTIVE SUMMARY


The Florida Legislature established the Florida Fund for Minority Teachers (FFMT) in 1996. The
FFMT provides minority college students “scholarships” in exchange for their commitment to remain in
Florida and teach after graduation. Students that accepted the inducements but did not remain in
Florida and teach were required to repay, with interest, funds they had received.

The Office of Inspector General (OIG) examined the FFMT’s activities from September 9, 1996
through May 13, 1997. Florida spent nearly $3 million of Job Training Partnership Act (JTPA), Title
III funds on the program, during our audit period. JTPA Title III funds are available to assist
“dislocated workers” who are unemployed and unlikely to return to their previous industries or
occupations, and certain long-term unemployed individuals.

Our Concerns

The FFMT did not comply with the JTPA’s provisions or Federal regulations. We found:

       •       scholarships were provided to only certain ethnic and racial groups, in violation of
               Section 167 of the JTPA;

       •       requirements that students repay monies they had received, if teaching commitments
               were not satisfied, created a revolving fund prohibited by the JTPA;

       •       funds were provided students without determining whether they met JTPA Title III
               eligibility requirements; and

       •       students who received the scholarships were not dislocated workers JTPA funds were
               intended to serve.

We recommend the Assistant Secretary for Employment and Training recover $2,957,400 the State of
Florida has misspent on the FFMT program. Additionally, the Assistant Secretary should obtain the
State’s assurance that all JTPA-funded programs comply with the Act and Federal regulations.




U.S. Department of Labor - Office of Inspector General
Florida Misspent JTPA Funds On Its Minority Teachers Education Program


Florida’s Response

In its response to our draft audit report, Florida affirmed the focus of the FFMT was to induce
minorities into the teaching profession, and the State indicates it was pleased that the program did so.
Florida believes that FFMT is not much different from other JTPA programs, in which a large
proportion of the populations served are minorities. Florida denies that nonminorities were excluded
from the program. Rather, the response suggests nonminorities may have been discouraged from
participating by the program’s processes.

The State also disagreed with OIG’s finding that the FFMT was a revolving loan fund. Florida
acknowledged its failure to determine JTPA eligibility of students during the first year of the FFMT
program’s operation. However, Florida believes the program is effective and that any violations of the
JTPA that may have occurred are outweighed by the social benefits of the program. The full text of
Florida’s response is included as Exhibit 1 of this report.


OIG’s Conclusion

Florida’s response did not provide additional evidence we had not considered in preparing the draft
audit report. The FFMT’s objectives were inconsistent with JTPA, Title III requirements. Florida
acknowledged the purpose of FFMT was not to serve dislocated workers and eligibility determinations
were not completed on individuals who received FFMT scholarships to ensure they were entitled to
JTPA-funded assistance. We disagree with Florida’s comment that the FFMT did not exclude
nonminority participants and continue to believe Florida has established a revolving loan fund with
JTPA monies, in violation of the JTPA’s provisions.




U.S. Department of Labor - Office of Inspector General                                                     2
Florida Misspent JTPA Funds On Its Minority Teachers Education Program


                           INTRODUCTION AND CRITERIA


                                     During the course of audit fieldwork related to another of
 OIG’s Involvement                   Florida’s JTPA programs, it came to our attention that the
                                     Florida Legislature had created programs and used grant
                                     monies for activities that may not have complied with the
JTPA’s provisions. The FFMT was among those programs with which we had concerns. As a
consequence, we began audit work in 1999.


                                         The JTPA amendments of 1992 (Public Law 102-367)
 Purpose of                              authorize the use of public funds for programs designed to help
 the JTPA                                individuals enter the labor force. As discussed in Section 2 of
                                         the JTPA, funds are to provide:

        . . . programs to prepare youth and adults facing serious barriers to employment
        for participation in the labor force by providing job training and other services
        that will result in increased employment and earnings, increased educational and
        occupational skills, and decreased welfare dependency, thereby improving the
        quality of the work force and enhancing the productivity and competitiveness of
        the Nation.

                                         Title III of the JTPA established programs to assist eligible
 Assistance For                          dislocated workers and certain long-term unemployed to
 Dislocated Workers                      reenter the workforce. Generally, an “eligible dislocated
                                         worker” is an individual who has been laid off, due to a plant
                                         closing, or received notice of an imminent layoff and is unlikely
to return to the previous industry or occupation in the area in which he or she resides.




U.S. Department of Labor - Office of Inspector General                                                       3
Florida Misspent JTPA Funds On Its Minority Teachers Education Program


Allowable uses of Title III funds include:

        C       rapid response assistance, in instances of layoffs;
        C       coordination, and integration of basic readjustment and support services;
        C       retraining services to dislocated workers;
        C       needs-related payments; and
        C       coordination with the unemployment compensation system.

                                        In 1996, the Florida Legislature appropriated $3 million ($2.8
Florida’s Program                       million in earmarked scholarships and $200,000 for
for Minority Teachers                   administration) for a “Minority Teacher Education Scholarship”
                                        program.

The Legislature required $3 million be deposited into the FFMT and used for scholarships and
incentives. The appropriation was funded with JTPA Title III monies passed through the Florida Jobs
and Education Partnership (JEP). As directed by the Florida Legislature, the JEP contracted with the
FFMT, Inc., at the University of Florida, to provide scholarships for:

        . . . dislocated military personnel, dislocated defense contractor employees and
        minority groups under-represented in the teaching workforce. . . .

From September 1996 through May 1997, the FFMT received about $2.8 million from JEP for 737
scholarships. Scholarships were awarded to students at 9 State-supported and 18 independent
colleges and universities throughout Florida. In addition, the FFMT received about $169,000 in JTPA
funds to administer the program.

Scholarships were provided to minority juniors, seniors and graduate students who agreed to teach in
the State after their graduation. Students could receive $2,000 per semester, up to a maximum of
$12,000 over 3 years, from the FFMT. However, students were required to sign promissory notes
obligating them to full-time teaching commitments in the State of Florida.

The promissory notes bound students to teach a year in Florida’s public schools for each $4,000 they
received. The promissory note was repayable in cash, plus interest, to the FFMT, if a recipient: (1)
failed to maintain full-time student status during any academic term; (2) failed to meet academic
program requirements necessary to obtain a teaching certification; or (3) failed to fulfill their teaching
obligation in Florida after graduation.




U.S. Department of Labor - Office of Inspector General                                                       4
Florida Misspent JTPA Funds On Its Minority Teachers Education Program


                    OBJECTIVE, SCOPE AND METHODOLOGY

                               We reviewed JTPA-funded scholarships awarded to Florida college
  Objective                    students who participated in the FFMT program. Our objective was to
                               determine if JTPA funds were spent in accordance with applicable laws
                               and regulations.


 Scope                         Our audit included FFMT program activities that occurred from
                               September 9, 1996 through May 13, 1997.

                           To obtain an understanding of the FFMT program’s operation, we
                           reviewed legislation and materials prepared by the State describing the
 Methodology
                           program. We also interviewed JEP personnel and program administrators
                           at the colleges and universities we visited to determine what procedures
                           were in place for establishing participants’ JTPA eligibility. We also
analyzed selected data maintained by FFMT in its management information system (MIS).

Because FFMT told us scholarship recipients were not screened for JTPA eligibility, we randomly
selected a discovery sample of 50 students from 8 colleges and universities. We determined if the
scholarship recipients were dislocated workers, in accordance with JTPA Title III provisions. Our
sample was chosen from among 737 recipients who attended the 27 colleges and universities that
participated in the FFMT program during our audit period. (See Attachment A.) Our sample was
designed to provide estimates at a confidence level of 90 percent.1

School officials provided us with financial data indicating how much of each student scholarship was
applied toward tuition and fees. JTPA expenditures for the FFMT program were obtained from JEP’s
payment history files. These history files were analyzed to determine the number of FFMT students and
the amounts of JTPA funds paid to the FFMT for scholarships and administrative costs.

We did not evaluate JEP’s, FFMT’s, or individual school’s internal controls over JTPA-funded
payments. Our audit was made for the sole purpose of determining if JTPA requirements had been
satisfied. We did not audit financial information or performance statistics reported for the program by
the State.

         1
          None of the students in our sample satisfied JTPA Title III participation requirements. Our sample
precision allows us to project that an upper limit of 737 and a lower limit of 620 students were not dislocated
workers.




U.S. Department of Labor - Office of Inspector General                                                            5
Florida Misspent JTPA Funds On Its Minority Teachers Education Program


Our audit was conducted in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States, and included such tests as we considered necessary to
satisfy the objective of our audit. Our fieldwork began in January 1999 and continued intermittently
through November 1999.

                                      RESULTS OF AUDIT



    $2.9 MILLION IN JTPA FUNDS WERE IMPROPERLY SPENT BY
     THE FLORIDA FUND FOR MINORITY TEACHERS PROGRAM


The Florida Fund for Minority Teachers (FFMT) scholarship program, funded with JTPA Title III
money, did not assist dislocated workers. Rather, grant funds provided minority college students with
scholarships in exchange for their commitment to remain in Florida and teach following graduation.

                                               Contrary to the JTPA’s provisions, the FFMT provided
The FFMT Program                               assistance only to members of specific ethnic and racial
Improperly                                     groups. Students who were not members of a minority
Excluded                                       group were not served by the program.
Nonminorities
                                                The State Legislature indicated the FFMT would assist
                                                minorities and dislocated military or defense contractor
personnel. Our review of FFMT data indicates all but 1 of the 737 scholarships were awarded to
individuals who the FFMT’s records identified as minorities. The exception was a student who was
awarded a scholarship because he was displaced from the military. However, we found that the
recipient was not eligible for Title III assistance, as he was retired from the military and did not satisfy
the definition of a “displaced worker” contained in the JTPA Title III regulations.

In fact, the Minority Teachers Education Scholarship application directs applicants to identify
themselves as a member of one of only four racial or ethnic groups. They included: (1) African
Americans; (2) Hispanics; (3)Asians/Pacific Islanders; or (4) American Indians/Alaskan Natives.

Section 167(a)(2) of the JTPA provides that:




U.S. Department of Labor - Office of Inspector General                                                         6
Florida Misspent JTPA Funds On Its Minority Teachers Education Program


        No individual shall be excluded from participation in, denied the benefits of,
        subjected to discrimination under, . . . in connection with any such program
        because of race, color, religion, sex, national origin. . . .




In addition, Section 141(a) of the JTPA indicates efforts will be made:

       . . . to provide equitable services among substantial segments of the eligible
       population.


                                                           The FFMT operates as a revolving loan
 JTPA Monies Should Not                                    fund which is an unallowable use of JTPA
                                                           monies. Section 141(q) of the JTPA
 Have Been                                                 provides that:


       No funds available under this Act shall be used for . . . investment in revolving
       loan funds. . . .

Recipients of FFMT scholarships must sign commitments to either teach in Florida for specified periods
of time or repay the funds, plus interest. Money recovered from students is redeposited into the FFMT
and awarded to additional recipients.

At the time of our audit, the FFMT had awarded at least 35 additional scholarships from monies repaid
to the loan fund. Based upon FFMT requirements, substantial additional sums are due the Trust Fund
and may be recovered. At least 485 of 737 students who received scholarships had either graduated
from college or were progressing toward graduation. However, 252 of the 737 recipients had dropped
from the program. Program data indicated at least 146 of the 252 students had not satisfied their
commitments because they had failed to meet requirements for classification as full-time students,
changed to a non-teaching major of study, or dropped out of college. These 146 students received
about $600,000 in JTPA-funded FFMT scholarships, all of which is due to the FFMT.




U.S. Department of Labor - Office of Inspector General                                                   7
 Florida Misspent JTPA Funds On Its Minority Teachers Education Program


                                       Both Federal and State provisions required FFMT to determine
                                       students’ eligibility for JTPA Title III assistance before serving
  Students’
                                       them. However, eligibility determinations were not completed on
  Eligibility                          students who received the FFMT scholarships.


The JTPA and its program regulations identify specific target groups that are to be served with the funds
provided states. The JTPA, Section 4(37) defines a “participant” as:

        . . . an individual who has been determined to be eligible to participate in and who
        is receiving services. . . .

Also, JTPA regulations at 20 CFR 627.235 require recipients ensure participants:

        . . . meet the requirements . . . applicable to programs funded under the specific
        section or title of the Act under which the participant is enrolling.

In addition to Federal criteria, the agreement between JEP and FFMT required FFMT ensure:

         All contract expenditures must conform to the federal Job Training Partnership
        Act (PL 102-367), regulations applying to JTPA Title III eligibility, and allowable
        services for dislocated workers.

We interviewed program administrators at the FFMT and at eight schools we visited and reviewed
scholarship recipients’ files to determine the procedures used to establish their eligibility for the JTPA
Title III program. We found that JTPA eligibility determinations had not been completed on any of the
scholarship recipients in our sample.

We also searched Florida’s JTPA MIS, to determine if any of the 737 recipients of scholarships may
have been determined eligible for JTPA through previous participation in other of Florida’s JTPA
programs. The MIS indicated only 18 of the 737 students (2 percent) had been determined eligible
under any JTPA program. Further, only 2 of the 18 students on whom past determinations had been
made, were found eligible for Title III assistance and none were identified as enrolled in the FFMT
program.




 U.S. Department of Labor - Office of Inspector General                                                      8
 Florida Misspent JTPA Funds On Its Minority Teachers Education Program


                                      Recipients of the scholarships were full-time college students, not
  Recipients                          dislocated workers targeted by JTPA for assistance. Further,
  Were Full-Time                      students who received JTPA-funded scholarships may not have
  Students, Not                       been those most in need of help.

                                      We randomly selected a sample of 50 students from among the
                                      737 who had received FFMT scholarships. The students we
sampled attended 8 of the 27 schools that participated in the FFMT program. We interviewed the 50
students to determine if they were dislocated workers.

As discussed in the “Introduction and Criteria” section of this report, Title III funds are provided to
serve eligible dislocated workers. Dislocated workers are individuals who are unemployed, or about to
become so, because of layoffs from industries or occupations, to which it is unlikely they will be able to
return, in the areas where the workers reside.

Our interviews with the 50 students in our sample indicate they were not dislocated workers. Rather,
they were full-time college students who told us their primary reason for attending college was to
complete their post-high-school education, not gain reentry into the job market from which they had
been displaced.

As might be expected of many college students, most students in our sample were young and indicated
they lived on or near campus or with their parents. All were full-time students, as required by the
program. While the students who received the scholarships ranged in age from 19 to 49 years, they
averaged 26 years old. Forty of the students (80 percent) had entered college to continue their
education after graduating from high school. The remaining 10 students (20 percent) were completing
undergraduate work in another discipline or pursuing graduate degrees.

Some students were not working, some students had part-time jobs and others worked full-time.
However, none considered themselves unemployed or underemployed. Fifteen students were working
more than 30 hours per week at the time they received FFMT scholarships. Twenty-five students
worked 15 to 30 hours per week. The remaining 10 students were not employed and were not seeking
employment.

Nineteen of the students were dependent on others for financial support. They resided in college
housing or with their parents. The remaining 31 students indicated they supported themselves.




 U.S. Department of Labor - Office of Inspector General                                                      9
 Florida Misspent JTPA Funds On Its Minority Teachers Education Program


In addition to not being dislocated workers, the data also suggest students who received assistance may
not have satisfied the broader JTPA objective of serving those most in need of help. According to
Section 141(a) of the JTPA:
        (a) Each job training plan shall provide employment and training opportunities to
        those who can benefit from, and who are most in need of, such opportunities and
        shall make efforts to provide equitable services among substantial segments of the
        eligible population.

JTPA funds were not always used for the cost of education since financial need was not a basis for
awarding scholarships. Apparently, the financial resources already available to a student were not a
pertinent factor when awarding scholarships. As previously discussed, a commitment to teach in Florida
was all it took to qualify for a $2,000 per semester grant.

We found 29 of the 50 students (58 percent) received financial support from parents or other public and
private grants, such as the Federal Pell Grant program (PELL), in addition to the FFMT scholarship.
Generally, schools would first use PELL and private grants and other scholarships to pay students’
tuition and fees. The schools would then use monies provided through the FFMT scholarships, if
needed, to pay the remaining balances.

The schools customarily “refunded” to students the remaining balances that were not needed to pay
tuition and fees, at the end of each semester. One-half of the students we sampled (25 of 50) received
“refunds” totaling about $65,000 (66 percent) of the $98,000 awarded them by the FFMT. Some 20
percent of the students in our sample (10 of 50) were “refunded” the total amount of their FFMT
scholarships, because the tuition and fees had been satisfied from other sources.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training recover $2,957,400 in JTPA
funds Florida spent in violation of the Act. Additionally, the Assistant Secretary should take action to
ensure all of Florida’s JTPA programs conform with provisions of Section 167(b) and other
requirements of the Act.

FLORIDA’S RESPONSE TO THE DRAFT REPORT

Florida’s response, included in its entirety as Exhibit 1 of this report, does not contend those students
who received scholarships were dislocated workers in need of assistance. Rather, the response




 U.S. Department of Labor - Office of Inspector General                                                     10
 Florida Misspent JTPA Funds On Its Minority Teachers Education Program


indicates “. . . it pleases us that a program designed to induce such [minority] students into the
teaching profession did so.”

Florida believes the FFMT is not that much different from other traditional JTPA programs in which a
substantial proportion of the participants are minorities. Florida indicated that while the program, “may
have discouraged those who were not minorities from applying” the auditors did not provide
evidence that some racial groups were excluded from participation. Florida asserts that OIG’s
identification of one program participant who was white provides proof that “a determined individual
was not excluded [from the FFMT program].” However, Florida does concede the process ”. . .
may have discouraged those who were not minorities from applying [for the program]” and that
“. . . the statistical imbalance revealed by these numbers [FFMT program statistics] indicates a
need for special efforts to move toward equity in terms of the workforce system meeting the
needs of all potential clients.”

Florida also argues that although the “mechanism employed by the service provider may have some
appearance of such [a revolving fund],” the FFMT was not a revolving fund, because participants
were required to repay monies only if they did not remain in Florida and teach. According to the
response, the provision was only a mechanism to insure “taxpayer funds are used to serve the
populations identified by policy makers.”

Florida acknowledges it did not determine if the students served during the first year of the FFMT
program’s operation met JTPA eligibility requirements and that “some mistakes have been made, most
of which have been addressed in all subsequent years.” The response also indicates that the OIG
staff began the audit exit conference “admitting that this program was a great program,” and that
Florida believes the FFMT’s social merits outweigh violations of the JTPA that have occurred.

OIG’S CONCLUSION

Florida’s response to the draft report did not contain additional information that convinced us FFMT
program costs are allowable JTPA expenditures or caused us to alter our recommendations.

Eligibility determinations were not made to ensure recipients of the scholarships were entitled to JTPA-
funded assistance. Further, the response did not provide evidence that the individuals served were
dislocated workers the JTPA intends to help. Therefore, the scholarships should not have been funded
with JTPA monies.
The response indicates nonminorities were not excluded from participating in the program. The
response discusses a white FFMT scholarship recipient who the State indicates is



 U.S. Department of Labor - Office of Inspector General                                                 11
 Florida Misspent JTPA Funds On Its Minority Teachers Education Program


”. . . proof that a determined [nonminority] individual was not excluded.” Rather, the State
suggests the lack of nonminority participation may have resulted from a process that “discouraged”
nonminorities from participating.

We do not believe the response adequately explains the lack of nonminority FFMT scholarship
recipients. The individual described in Florida’s response is the only person not identified in the
FFMT’s program records as a minority group member, during the period we audited. According to
statistics included in Florida’s response, for the period we audited, 43 percent of the State’s total JTPA
Title III participants were minority group members. Consequently, 57 percent of the Title III
participants served in Florida were not minorities. Yet, the single FFMT scholarship received by a
nonminority individual represents only .1 percent (1 of 737) of the total scholarships awarded during our
audit period.

Regarding the establishment of a revolving fund, Florida indicated that the goal of the program was not
to have students repaying their grants. Rather, according to the State, the repayment provision was
intended to “preserve the integrity of the system” and ensure those who received funds were only
“those individuals targeted by the program and who fulfilled their obligations to Florida’s
children.”

We disagree. Those served by the FFMT were not dislocated workers. Thus, the repayment
provisions do not protect the integrity of the program or serve those individuals the JTPA targets for
assistance. Further, some students have been required to repay the funds and Florida has used the
repayments for additional scholarships. Whether intended or unintentional, Florida has created a
revolving fund with JTPA monies and in doing so, has violated Section 141(q) of the Act. Further, it is
arguable whether, in the absence of fraud, bona fide JTPA participants could be required to repay
Federally-funded training costs because they did not remain in Florida and teach.

Finally, the response does not present comments attributed to OIG staff, at the audit exit conference, in
the context they were discussed. The FFMT operated outside of permissible
JTPA parameters and its effectiveness cannot be evaluated against Title III objectives. As stated at the
exit conference, regardless of how laudable the program’s intentions may have been or the State’s
opinion of its effectiveness, the funds were not spent for allowable JTPA purposes.




 U.S. Department of Labor - Office of Inspector General                                                   12
                                                          ATTACHMENT A
                                  SCHEDULE OF FFMT
                        SCHOLARSHIPS AWARDED AND SAMPLED
                 AUDIT PERIOD: SEPTEMBER 9, 1996 THROUGH MAY 13, 1997
                                         Number of      Amount of      Number    Amount
        College or University           Scholarships   Scholarships    Sampled   Sampled


State-Supported Colleges and Univs.
Florida A & M                                  81        $274,000         11     $38,000
Florida Atlantic                               32         128,000
Florida International                          86         334,000
Florida State Univ.                            54         214,000
Univ. of Central Florida                       31         124,000          5      20,000
Univ. of Florida                               34         132,000
Univ. of North Florida                          7          28,000
Univ. of South Florida                         48         184,000
Univ. of West Florida                          29         106,000          5      20,000

Independent Colleges and Universities
Barry University                               63          228,000        10      34,000
Bethume-Cookman College                        18           72,000         5      22,000
Clearwater Christian College                    2            8,000
Edward Water College                           43          160,000
Flagler College                                 3           12,000         2       8,000
Florida Institute of Technology                 1            2,000
Florida Memorial College                       45          176,000
Florida Southern College                        6           22,000         2       8,000
Jacksonville University                        20           70,000
Nova Southeastern University                   46          174,000        10      38,000
Palm Beach Atlantic College                     4           14,000
Rollins College                                 8           34,000
St. Leo College                                42          164,000
St. Thomas University                          15           54,000
Southeasten College                            10           40,000
University of Miami                             3           10,000
University of Tampa                             2            6,000
Warner Southern College                         4           18,000
Total Scholarships                            737         $2,788,000      50     $188,000
Administrative Charges                                       169,400
Total FFMT Expenditures                                  $2,957,400
                                           EXHIBIT 1




THE COMPLETE TEXT OF FLORIDA’S RESPONSE

        Is Presented on Subsequent Pages
